No. ____

In the Supreme Court of the United States
BRETT HENDRICKSON,
PETITIONER,
V.

AFSCME COUNCIL 18;
MICHELLE LUJAN GRISHAM,
IN HER OFFICIAL CAPACITY AS

GOVERNOR OF NEW MEXICO; AND
HECTOR BALDERAS,
IN HIS OFFICIAL CAPACITY AS

ATTORNEY GENERAL OF NEW MEXICO,
RESPONDENTS.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of
Certiorari in Hendrickson v. AFSCME Council 18 contains 4,898 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 13, 2021
/s/ Brian K. Kelsey
Brian K. Kelsey
Counsel of Record
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
bkelsey@libertyjusticecenter.org

